                             NATIONAL SCIENCE FOUNDATiON
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




MEMORANDUM


Date:          September 24, 1997

To:            I97P10004-
                  '.
From:                                   'al Agent

Via:           ~pecial Agent,in

Re:.           Resolution of Case


              23, 1997, an NSF contracts specialist referred allegations made
                _               PI on~SFrant                   , alleged that
               State University               his former employer refused to             grant
                               employe with the University of                 Instead, _
                "Lc:llll<;;L1 the transfer for several months                  (approxi~
                remaining $30,000) from the grant during that tIme

   Our office contacted b o t h _ and the _epartment where . u s e d to work. We
 . also ~eviewed account summaries and o. t.he.~r
                                              .nanccial documentati~V1ded to us by~·
   Based on these interviews and reviews, we determined that the ~charges for the four
  months between the time _ _ left _ a n d his grant transferred were for grant,related
~itures that _~rlier approved and budgeted for. In fact, when interviewed,
_          stated that ~sing" $15,000 could have conceivably been spent during these four

.."months on, among other things, the salaries of the graduate students he had left behind at
                                    .




 Due to lack of evidence to show that~tentionally mischarged the NSFgrant, further
 investigation is not warranted at this t~his case is closed.



 ~laimed that . d i d this, in part,     to buy time in order to suggest to NSF that   be replaced as
